No. _________
================================================================================================================

In The

Supreme Court of the United States
---------------------------------♦--------------------------------FRED S. PARDES,
Petitioner,
v.
ANDREW S. WIENICK, DARSHANN WIENICK,
Respondents.
---------------------------------♦--------------------------------On Petition For Writ Of Certiorari
To The Court Of Appeal Of California,
Fourth Appellate District, Division Three
---------------------------------♦--------------------------------PETITION FOR WRIT OF CERTIORARI
---------------------------------♦--------------------------------FRED S. PARDES
34145 Pacific Coast Highway,
Ste. 520
Dana Point, CA 92629
949-293-4506
fred@fredpardes.com
In Pro per
September 8, 2020
================================================================================================================

i
QUESTIONS PRESENTED
Petitioner Fred S. Pardes (Pardes or Petitioner), is
the maternal Grandfather who had a long pre-existing
loving and bonded relationship with his two grandsons, N.W. and S.W. (the boys), from the date of their
respective births, until the premature death of his
daughter, Jennifer Pardes Wienick, just over five years
ago, on June 27, 2015. Petitioner seeks to assert his
constitutional rights regarding several issues of first
impression, in the field of Grandparent Visitation law.
He also seeks review and modification of this Court’s
harsh decision in the landmark case of Troxel v. Granville (2000) 530 U.S. 57.
This case raises Five critical issues of First Impression, of nationwide interest, which would be of
very substantial interest not only to the Grandparent
and Family Law community, but would also promote
and protect the emotional welfare of innocent minor
Grandchildren throughout the United States, who are
being wrongfully deprived of additional love and emotional support by an “Unfit Parent”, during their tender years. They are:
1- Whether or not there exists a rebuttable presumption as a general rule, that Grandparent visitation is in the best interest of minor grandchildren,
where there was a pre-existing loving and bonded
Grandparent relationship, before one parent prematurely passes away during the Grandchild’s minority?

ii
QUESTIONS PRESENTED – Continued
2- Whether or not a Family Law Court is obligated to initially evaluate the “Emotional Fitness” of
the surviving parent including the validity of the reasons and concerns for the surviving parents’ objection
to Grandparent visitation, before any analysis under
any applicable Grandparent Visitation statutes?
3- Whether or not the lack of any Grandparent
contact, from the time of the death of the natural
mother up until the time of trial on the Grandparent
Visitation Petition, due to the surviving parent’s refusal to grant any Grandparent visitation or contact,
can be used as a justification for denying Grandparent
visitation?
4- Whether or not the surviving parent’s punitive and unjustifiable interference with a pre-existing
Grandparent-Grandchild loving and bonded relationship, after the premature death of the natural mother,
constitutes “Grandparent Alienation” which invalidates the surviving parent’s objection to Grandparent
visitation, precluding the analysis otherwise required
under any Family Law statutes or Troxel?
5- Whether or not a loving and bonding relationship can be established between a Grandparent and a
Grandchild, when the time spent with the Grandparent and the Grandchild is only during the post divorce
custodial time with the Natural Mother, before she
passes away?

iii
PARTIES TO THE PROCEEDINGS BELOW
The parties to the proceedings below are:
Petitioner Fred S. Pardes, is the father of the deceased natural Mother Jennifer Pardes Wienick, and
Maternal Grandfather of the boys.
Respondent Andrew S. Wienick, is the ex-husband
of Jennifer, and natural father of the boys.
Respondent Darshann Wienick, is the new wife
of Wienick, who married Wienick shortly after the
Wienick divorce became final.
CORPORATE DISCLOSURE STATEMENT
There are no corporations involved in this proceeding.
STATEMENT OF RELATED CASES
1- Fred S. Pardes, Petitioner v. Andrew S. Wienick,
Darshann Wienick, Respondents Orange County Superior Court Case No. 16Fl000271
Honorable Judge Salvador Sarmiento
Statement of Decision on Non-Suit rendered September 10, 2018 (App. 31)
December 24, 2018 Judgment on Non-Suit denying
Grandparent Visitation (App. 24)

iv
STATEMENT OF RELATED CASES – Continued
2- Fred S. Pardes, Appellant/Petitioner v. Andrew S.
Wienick, Darshann Wienick, Respondents Court of
Appeal Case Number G057362
Court of Appeal Opinion issued March 11, 2020 (App.
1)
Court of Appeal Order denying Petition for Rehearing
filed April 2, 2020 (App. 23)
3- Fred S. Pardes, Appellant/Petitioner v. Andrew S.
Wienick, Darshann Wienick, Respondents
California Supreme Court Case Number S261936
California Supreme Court Order denying Petition for
Review filed June 24, 2020 (App. 36)

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ................................

i

PARTIES TO THE PROCEEDINGS BELOW .....

iii

CORPORATE DISCLOSURE STATEMENT ......

iii

STATEMENT OF RELATED CASES ..................

iii

TABLE OF CONTENTS ......................................

v

TABLE OF AUTHORITIES ................................. viii
OPINIONS BELOW.............................................

1

JURISDICTION ...................................................

2

RELEVANT STATUTES ......................................

5

NECESSITY FOR GRANTING CERTIORARI ...

8

STATEMENT OF THE CASE.............................. 13
REASONS FOR GRANTING CERTIORARI ....... 16
1- THERE SHOULD EXIST A REBUTTABLE
PRESUMPTION THAT AS A GENERAL
RULE, GRANDPARENT VISITATION, IS
IN THE BEST INTERESTS OF MINOR
GRANDCHILDREN, WHERE THERE HAS
BEEN A PRE-EXISTING GRANDPARENT
RELATIONSHIP, BEFORE ONE PARENT
PREMATURELY PASSES AWAY DURING
THEIR MINORITY .................................... 16

vi
TABLE OF CONTENTS – Continued
Page
2-

COURTS SHOULD BE REQUIRED TO
EVALUATE THE “EMOTIONAL FITNESS” OF THE SURVIVING PARENTS
INCLUDING THE VALIDITY OF THE
REASONS AND CONCERNS FOR THE
SURVIVING PARENTS’ OBJECTION TO
GRANDPARENT VISITATION, BEFORE
INVOKING THE REBUTTABLE PRESUMPTION OF THE TROXEL DECISION AND EVALUATION OF FAMILY
CODE SECTIONS 3102 AND 3104 ........... 20

3-

THE LACK OF ANY GRANDPARENT
CONTACT, FROM THE TIME OF THE
DEATH OF THE NATURAL MOTHER
UP UNTIL THE TIME OF TRIAL ON
THE GRANDPARENT VISITATION PETITION, DUE TO SURVIVING PARENT’S PUNITIVE REFUSAL TO GRANT
ANY GRANDPARENT VISITATION OR
CONTACT, SHOULD NOT BE USED AS
A JUSTIFICATION FOR DENYING
GRANDPARENT VISITATION ................. 27

4-

THIS COURT SHOULD RECOGNIZE
THE LEGAL CONCEPT OF GRANDPARENT ALIENATION, AND AUTOMATICALLY
PERMIT
GRANDPARENT
VISITATION, WHERE SURVIVING PARENTS EXHIBIT SUCH ALIENATION
PRACTICES .............................................. 30

vii
TABLE OF CONTENTS – Continued
Page
5-

A LOVING AND BONDING RELATIONSHIP CAN BE ESTABLISHED BETWEEN
A GRANDPARENT AND A GRANDCHILD, EVEN WHEN THE VISITATION
TIME SPENT WITH THE GRANDPARENT AND THE GRANDCHILD IS DURING THE POST DIVORCE CUSTODIAL
TIME WITH THE NATURAL MOTHER,
BEFORE SHE PASSES AWAY .................. 36

CONCLUSION..................................................... 39
APPENDIX
California Court of Appeal Opinion issued
March 11, 2020 ................................................. App. 1
California Court of Appeal Order denying Petition for Rehearing filed April 2, 2020 ............ App. 23
California Superior Court Judgment Granting
Non-Suit filed December 24, 2018 ................. App. 24
California Superior Court Statement of Decision granting non-suit to grandparent visitation petition filed September 10, 2018 .......... App. 31
California Supreme Court Order denying Petition for Review filed June 24, 2020 ............... App. 36
Trial exhibit 18 .................................................. App. 37
Trial exhibit 19 .................................................. App. 42

viii
TABLE OF AUTHORITIES
Page
CASES
Hoag v. Diedjomagor (App. 4 Dist. 2011) 200
Cal. App. 4th 1018 ...................................... 25, 26, 29
In Re Marriage of Nair (2010) 2010 WL 2330204 ...... 34
In Re MM (2015) 2015 WL 8770107 ..........................34
Rich v. Thatcher (2011) 200 Cal. App. 4th 1176 .........24
Stuard v. Stuard (2016) 244 Cal. App. 4th 768 .........16
Troxel v. Granville (2000) 530 U.S. 57 ........ 4, 19, 20, 26
Zasueta v. Zasueta (2002) 102 Cal. App. 4th
1242 .........................................................................17
STATUTES
Civil Code section 3517 ........................................ 29, 35
Family Code section 3102 ................................... passim
Family Code section 3104 ................................... passim
U.S. CONSTITUTION
Fourteenth Amendment ...............................................2
MISCELLANEOUS
Barbara Jo Fidler, Nicholas Bala, Children Resisting Postseparation Contact with A Parent:
Concepts, Controversies, and Conundrums
(2010) 48 Fam. Ct. Rev. 10, 12 ...................... 31, 32, 33

1
OPINIONS BELOW
CITATIONS OF THE OFFICIAL AND UNOFFICIAL REPORTS OF THE OPINIONS AND ORDERS ENTERED IN THE CASE BY THE COURTS
OR ADMINISTRATIVE AGENCIES
FRED S. PARDES, Petitioner v. ANDREW S.
WIENICK,
DARSHANN WIENICK, Respondents
Orange County California Superior Court
Case No. 16Fl000271
Statement of Decision Granting Non-Suit by
Honorable Judge Salvador Sarmiento, filed
on September 10, 2018 – No Citation
FRED S. PARDES, Petitioner v. ANDREW S.
WIENICK,
DARSHANN WIENICK, Respondents
Orange County California Superior Court
Case No. 16Fl000271
Judgment denying Grandparent Visitation
filed on December 24, 2018 – No Citation
FRED S. PARDES, Appellant/Petitioner v.
ANDREW S. WIENICK,
DARSHANN WIENICK, Respondents
California Court of Appeal of the State of
California, Fourth Appellant District Opinion issued March 11, 2020 – No Citation
FRED S. PARDES, Appellant/Petitioner v.
ANDREW S. WIENICK,
DARSHANN WIENICK, Respondents
California Court of Appeal of the State of
California, Fourth Appellant District Order

2
denying Petition for Rehearing filed April 2,
2020 – No Citation
FRED S. PARDES, Appellant/Petitioner v.
ANDREW S. WIENICK,
DARSHANN WIENICK, Respondents
Supreme Court of California, Order denying
Petition for Review filed June 24, 2020 – No
Citation
---------------------------------♦---------------------------------

JURISDICTION
Petitioner asserts his constitutional right of a
Grandparent to protect his Grandchildren from emotional harm, abuse, Grandparent alienation, and the
improper upbringing of his Grandchildren by an “Unfit
Surviving Parent”. Pardes requests that this Court
consider whether or not the California Statutes as
cited in the lower Courts’ decisions and rulings, as applied to Petitioner, violates the Federal Constitution.
The Fourteenth Amendment provides that no
State shall “deprive any person of life, liberty, or property, without due process of law.” It should be self evident that a Grandparent’s “liberty” is his right to love
and protect his Grandchildren from emotional harm
and abuse from an “Unfit Surviving Parent”. Pardes
asserts that his right to love and protect his Grandchildren from emotional harm is equal to the “liberty” interest of a “FIT” parent’s right to control the custody
and care of their children. Where an “Unfit” surviving
parent is involved, emotionally harming his children,

3
a good and loving Grandparent should be allowed the
right to intervene, and protect his Grandchildren.
On June 24, 2020, the Supreme Court of the State
of California summarily denied Pardes’ Petition for
Review (App. 36), of the California Court of Appeal,
Fourth Appellate District, Division Three’s Opinion,
Fred S. Pardes, Appellant/Petitioner v. Andrew S.
Wienick, Darshann Wienick, Respondents, Court of
Appeal Case Number G057362, Court of Appeal Opinion issued March 11, 2020. The California Court of Appeal summarily denied Pardes’ Petition for Rehearing
filed April 2, 2020. (App. 23).
This Court has jurisdiction to determine this case
under 28 U.S.C. §1257(a), which states: “(a) Final judgments or decrees rendered by the highest court of a
State in which a decision could be had, may be reviewed by the Supreme Court by writ of certiorari
where the validity of a treaty or statute of the United
States is drawn in question or where the validity of a
statute of any State is drawn in question on the ground
of its being repugnant to the Constitution, treaties, or
laws of the United States, or where any title, right,
privilege, or immunity is specially set up or claimed
under the Constitution or the treaties or statutes of, or
any commission held or authority exercised under, the
United States.”
Pardes asserts that Grandparents have legal
rights and privileges under the United States Constitution, and the laws of the United States, including but
not limited to the pursuit of life, liberty and the pursuit

4
of happiness. That includes the right to reasonable
Grandparent Visitation, after the death of his child;
and the right to protect his Grandchildren from emotional harm. Further, that the application of the California statutes below, as applied to Pardes, are
repugnant to the United States Constitution and the
laws of the United States.
The five issues raised herein address the validity
and/or application of California Family Law Code sections 3102, 3103, and 3104, which as applied in this
case, are repugnant to the U.S. Constitution and/or the
laws of the United States. In addition, Pardes asserts
that the validity and/or application of California Family Law Code sections 3102, 3103 and 3104, which as
applied in this case, wrongfully deprive him of the
rights and privileges, the right to Grandparent Visitation after the death of a deceased daughter, Jennifer,
as claimed under the Constitution and laws of the
United States; as well as the right to protect his
Grandchildren from emotional harm.
In addition, this case seeks a clarification or modification or restriction, or overruling of this Court’s decision in Troxel v. Granville (2000) 530 U.S. 57, which
unfairly restricts or infringes on a Grandparents right
to reasonable visitation; and/or protection of his
Grandchildren from an Unfit Surviving Parent, engaging in Grandparent Alienation. Troxel, supra, does not
define whether or not a parent wrongfully depriving
his children of the additional love and emotional support of a Grandparent renders him an “Unfit Parent”,
and/or whether or not that emotional abuse constitutes

5
Grandparent Alienation, depriving him of any favorable presumptions in any Grandparent visitation dispute.
---------------------------------♦---------------------------------

RELEVANT STATUTES
The relevant statutes to this case are:
California Family Law section 3102, which
states:
“§ 3102. Deceased parent; visitation
rights of close relatives; adoption of
child
(a) If either parent of an unemancipated minor child is deceased, the children, siblings,
parents, and grandparents of the deceased
parent may be granted reasonable visitation
with the child during the child’s minority
upon a finding that the visitation would be in
the best interest of the minor child.
(b) In granting visitation pursuant to this
section to a person other than a grandparent
of the child, the court shall consider the
amount of personal contact between the person and the child before the application for the
visitation order.
(c) This section does not apply if the child
has been adopted by a person other than a
stepparent or grandparent of the child. Any
visitation rights granted pursuant to this
section before the adoption of the child

6
automatically terminate if the child is
adopted by a person other than a stepparent
or grandparent of the child.
California Family Law section 3103, which
states:
§ 3103. Grandparent’s rights; custody
proceeding
(a) Notwithstanding any other provision of
law, in a proceeding described in Section 3021,
the court may grant reasonable visitation to a
grandparent of a minor child of a party to the
proceeding if the court determines that visitation by the grandparent is in the best interest of the child.
(b) If a protective order as defined in Section
6218 has been directed to the grandparent
during the pendency of the proceeding, the
court shall consider whether the best interest
of the child requires that visitation by the
grandparent be denied.
(c) The petitioner shall give notice of the petition to each of the parents of the child, any
stepparent, and any person who has physical
custody of the child, by certified mail, return
receipt requested, postage prepaid, to the person’s last known address, or to the attorneys
of record of the parties to the proceeding.
(d) There is a rebuttable presumption affecting the burden of proof that the visitation of a
grandparent is not in the best interest of a minor child if the child’s parents agree that the

7
grandparent should not be granted visitation
rights.
(e) Visitation rights may not be ordered under this section if that would conflict with a
right of custody or visitation of a birth parent
who is not a party to the proceeding.
(f ) Visitation ordered pursuant to this section shall not create a basis for or against a
change of residence of the child, but shall be
one of the factors for the court to consider in
ordering a change of residence.
(g) When a court orders grandparental visitation pursuant to this section, the court in its
discretion may, based upon the relevant circumstances of the case:
(1) Allocate the percentage of grandparental
visitation between the parents for purposes of
the calculation of child support pursuant to
the statewide uniform guideline (Article 2
(commencing with Section 4050) of Chapter 2
of Part 2 of Division 9).
(2) Notwithstanding Sections 3930 and
3951, order a parent or grandparent to pay to
the other, an amount for the support of the
child or grandchild. For purposes of this paragraph, “support” means costs related to visitation such as any of the following:
(A)

Transportation.

(B) Provision of basic expenses for the child
or grandchild, such as medical expenses, day
care costs, and other necessities.

8
(h) As used in this section, “birth parent”
means “birth parent” as defined in Section
8512.
California Family Law section 3104, which
states:
§ 3104. Grandparent’s rights; petition by
grandparent; notice; protective order directed
to grandparent; rebuttable presumptions;
conflict with rights of non-party birth parent;
change of residence of child; discretion of
court.
(a) On petition to the court by a grandparent
of a minor child, the court may grant reasonable visitation rights to the grandparent if the
court does both of the following:
(1) Finds that there is a preexisting relationship between the grandparent and the grandchild that has engendered a bond such that
visitation is in the best interest of the child.
(2) Balances the interest of the child in having visitation with the grandparent against
the right of the parents to exercise their parental authority.
---------------------------------♦---------------------------------

NECESSITY FOR GRANTING CERTIORARI
Due to breakdown of family relationships in
modern times, Grandparent Visitation disputes are
increasing throughout the nation, at a large rate. Especially when a surviving hostile parent has total

9
control over visitation for the minor children, and
abuses the right to reasonable control.
This emotional abuse by a surviving parent is a
Nationwide problem. Not just in the State of California.
Due to abuse of the right to reasonable and beneficial control by surviving unfit parents, Grandparents
are being unnecessarily forced to file Visitation Petitions, and expend large amounts of money on legal fees,
expert fees and court costs, to protect their legal rights
under the United States Constitution and various
State Laws. Yet, there are few published Appellant
cases which would give guidance to the Trial courts
across the nation, which would help them evaluate
those Grandparent visitation issues before them. A
grant of review of this case is necessary to establish
new law and/or settle critical questions of the rapidly
expanding Grandparent Visitation law.
This case raises Five critical issues of First Impression, of nationwide interest, which would be of
very substantial interest not only to the Grandparent
and Family Law community, but would also promote
and protect the emotional welfare of Grandchildren
throughout the United States. In addition, such rulings would significantly reduce the substantial emotional trauma suffered by all Grandchildren, caused by
surviving hostile parents vindictive and punitive refusal to grant Grandparent visitation due to their hatred of the petitioning Grandparent. Such hatred has
nothing to do with the best interests and/or welfare

10
and/or emotional needs of the Grandchildren. The innocent minor Grandchildren become pawns in a narcissistic parent’s game of control and manipulation.
Grandparent-grandchildren visits, normally, as a
general rule, bring lots of joy and happiness to all involved. A minor Grandchild has no ability to select who
he can or cannot see. That is left up to the surviving
parent. For various negative personal reasons (i.e. revenge and/or retribution for perceived slights), totally
unrelated to the emotional welfare of the child, a surviving Parent does NOT always act in the best interests of his or her children.
It is conceded that sometimes a Grandparent or a
surviving parent simply do not get along. Such a disagreement should not automatically preclude the right
to Grandparent visitation. Especially, as in this case,
there was a well established lifelong loving and bonded
relationship between the Grandchildren and Grandparent, before the death of one of the natural parents.
A relationship that Wienick terminated without any
legal justification, for revenge and retribution of perceived slights.
Grandparents, especially surviving Grandparents,
have a legal right to reasonably visit their Grandchildren. Surviving parents are mandated to act in a reasonable manner, as it relates to not only to the physical
care of their children, but also their emotional health
and welfare.
Grandparents have raised their children to become parents. “But for” the Grandparents, there would

11
be no parents or Grandchildren. Good and loving
Grandparents, with a prior existing loving and bonded
relationship, are entitled to visit their Grandchildren.
It is not uncommon for disputes to arise between
children and parents. Those disputes become more
complicated when it involves a surviving parent, who
is an “In-Law”. Yet those disputes, between a parent
and his or her in law surviving parent, should not manipulated or abused to deprive a good and loving
Grandparent from reasonably visiting his or her
Grandchildren. Some credence should be given to the
fact that the Grandchild, the essence of the dispute,
wouldn’t be on this planet but for the efforts and sacrifice of that Grandparent. This fact of ultimate conception creates rights and privileges to that Grandparent,
under the Constitution, which should not be unreasonably interfered with, by an unreasonably disproving
punitive surviving parent. The Grandchildren should
not be used as a pawns of punishment or manipulation
by the surviving “Unfit” parent. Guidelines should be
instituted, to protect the Grandparents from the
whims of a Hostile In Law surviving “Unfit” parent.
It is regretful but true that the legal system can
be abused by a disreputable parent. Especially when
that surviving parent wants to punish his Father-InLaw over perceived slights during the unsuccessful
marriage.
A grant of Certiorari concerning these Five critical
issues, most if not all of first impression, is necessary
to give additional guidance to the Family Law Trial

12
Courts, throughout this nation, to settle important unresolved questions of Grandparent visitation. A ruling
in this case will help protect the mental health and
welfare of minor children, who are being wrongly deprived of additional love and emotional support of a
Grandparent, who was once actively involved in their
lives. This unlawful deprivation of love and emotional
support is being caused by a surviving In Law parent,
who has his own personal agenda of revenge and retribution, disregarding the mental health and emotional
welfare of his children. Such an “Unfit” Parent should
not be protected under the law.
A person’s life expectancy is totally unknown. A
Grandparent doesn’t know how long they will remain
alive after the birth of their Grandchildren. In the majority of cases, Grandparents will only have a very limited period of time left in their lives to see, establish,
and enjoy any type of relationship with their Grandchildren, before they pass away. To lose any amount of
that precious limited time and waste multiple years in
a Courthouse, due to a punitive parent’s game of control and manipulation is inherently unfair. This lost of
valuable time causes irreparable harm to both Grandparents and Grandchildren.
Justice delayed is Justice denied.
It is inherently unfair for a loving Grandparent
to waste three to five years, and tens of thousands of
dollars, unnecessarily fighting an abusive surviving
parent, in the Courtroom. Those three to five years
are lost years which can never be replicated, causing

13
irreparable damage to the emotional and psychological
needs of the Grandchild.
By granting Certiorari, this Court has an opportunity to prevent abusive misconduct by a surviving
“Unfit parent”, who puts his personal agenda of revenge and retribution before the best interests and
emotional welfare of his children.
The purpose of this Petition is to acknowledge a
Grandparent’s constitutional right to protect one’s
Grandchildren, and advance a compelling governmental interest, to wit: protecting minor children against
substantial irreparable harm, and rightfully establish
and expand Grandparents legal rights. Especially,
when one natural parent passes away at an early age,
during the minority of the Grandchildren.
---------------------------------♦---------------------------------

STATEMENT OF THE CASE
This case involves a nationwide common case of a
highly contentious Grandparent (Father of deceased
mother-Jennifer Pardes Wienick)-Surviving Parent
(Ex-Husband Andrew Wienick) relationship, with
problems over issues which have nothing to do with
the best interests or welfare of the grandchildren. See
Trial Exhibit 18 App. 38 and Trial Exhibit 19, App. 43.
These two Trial Exhibits clearly show the extraordinary amount of hatred that Wienick bears towards
Pardes, which precludes him from acting in a reasonable manner when it comes to his dealings with his ExFather in Law. Wienick wants revenge for past slights,

14
and to punish Pardes for his prior dealings, protecting
his daughter Jennifer, which have nothing to do with
the best interests of the boys. Such hatred and desires for revenge and retribution renders him an
“Unfit” Parent, preventing him from legitimately objecting to visitation.
This extreme “In Law” hostility, with desires for
revenge and retribution, is not an isolated instance.
It is a common thread in many of the Grandparent
Visitation cases, throughout the nation.
The Petition raises Five (5) novel issues of first
impression involving Grandparent visitation, by
Pardes, the father of the deceased Mother, Jennifer
Pardes Wienick, seeking to continue his long standing
pre-existing loving and bonded relationship that he
had with his Grandsons, from the date of both of
their births and up to Jennifer’s untimely death at
age Thirty-Eight (38). The Respondents Andrew and
Darshann Wienick (Wienicks) effectively terminated
that loving relationship for selfish, punitive and retaliatory reasons, for Pardes defending his emotionally
vulnerable daughter (who suffered a nervous breakdown, shortly before the Wienick’s separation and divorce in 2012) during highly toxic and contentious
Divorce and Post Judgment custody battles. Wienick’s
alleged concerns about Pardes were not reasonable or
remotely legitimate, having nothing to do with what
is in the best interest of the emotional needs of the
boys.

15
Such punitive interference, without any legitimate
or reasonable concerns as to the Pardes and the boys
pre-existing loving and doting Grandparent relationship, ignoring the emotional well being of their children, renders them “UNFIT” parents. This “Unfit”
classification precludes them from using the rebuttable presumption in the Troxel case, and Family Law
Code section 3104, and significantly altering the evaluation of the legal issues in the case.
Since Grandparent Visitation has only recently
become an area of vast public concern, there is little
case law giving guidance to Trial Courts as to how to
rule on the pertinent statutes Family law section 3102
and 3104. The Appellate Opinion (App. 1) did not rule
on several previously undetermined critical points of
law; and/or erroneously ruled on issues of law, based
upon incorrect factual analysis, and/or the lack of any
precedent on those issues.
Strong Public policy regarding the protection over
the emotional well being of minor children warrants a
closer look at the legal issues raised by this Petition.
---------------------------------♦---------------------------------

16
REASONS FOR GRANTING CERTIORARI
1- THERE SHOULD EXIST A REBUTTABLE
PRESUMPTION THAT AS A GENERAL
RULE, GRANDPARENT VISITATION IS IN
THE BEST INTERESTS OF MINOR GRANDCHILDREN, WHERE THERE HAS BEEN A
PRE-EXISTING GRANDPARENT RELATIONSHIP, BEFORE ONE PARENT PREMATURELY
PASSES AWAY DURING THEIR MINORITY.
It is true that Pardes is unable to cite any explicit
case or statute supporting this contention. However, it
is self evident. Neither the Wienicks nor either of the
two Courts could find any authority specifically ruling
that no such presumption exists. Many lower courts
have made such findings in their trial level decisions.
The lack of any Judicial precedent makes this issue a
case of first impression, for which the lower Court was
obligated to specifically rule upon, but chose not to do
so, because of the lack of any prior precedent.
However, in several of the prior court Grandparent
Visitation cases, the Trial Courts made some sort of
finding that Grandparent visitation is beneficial to the
well being of minor children. Such findings of huge
benefits are supported by many family law experts.
It is undeniable that the continuance of a preexisting loving and beneficial relationship with Grandparents during Divorce proceedings can provide stable
and dependable nurturing, the grandchild can continue to count on in the midst of a rift in the parental
relationship. See Stuard v. Stuard (2016) 244 Cal. App.

17
4th 768, 784, as modified on denial of reh’g (Mar. 1,
2016). The same benefit is even more critical to the
minor children, when the natural mother dies at a
very young age, and the Maternal Grandparent seeks
visitation with his Grandchildren, to continue his preexisting relationship with them.
The reversal in Zasueta v. Zasueta, (2002) 102
Cal. App. 4th 1242 at p. 1253, was primarily based on
the assumption by the Trial Court “that grandparentgrandchildren relationships always benefit children.”
That is not what Pardes is advocating. Pardes is advocating that where there is evidence of a long established pre-existing loving and bonded GrandparentGrandchild relationship, a rebuttable presumption is
created in the Grandparents favor until proven to the
contrary. Nothing in the Zasueta opinion precludes
such a finding. It does show another Judge’s opinion
that Grandparent visitation is normally, as a general
rule, beneficial to the Grandchildren, justifying imposition of such a rebuttable presumption in favor of the
Grandparents.
Logic and reason dictate that having a loving
doting Grandparent in a child’s life is generally in the
best interest of the child, unless proven to the contrary. There was no negative evidence on this issue
at time of trial. Even the Wienick’s stipulated after
the first day of trial that Pardes had a pre-existing
relationship with the boys at the time that Jennifer
passed away.

18
At trial Pardes attempted to introduce the Expert
Testimony to support this contention. In evaluating
whether or not to allow the proposed trial testimony of
well established and respected Family Law Custody
Expert Leslie Drozd, Judge Sarmiento stated on the
record:
“That is the issue right now is what am I
going to allow the petitioner to present?
What am I not going to allow him to present? I’ve had Dr. Drozd in my courtroom
on many other occasions.
She is highly respected by myself and
other people. The problem is the relevancy in this proceeding where she hasn’t
spoken to the children, she hasn’t spoken
to the parents.
I know she is going to give me a lot of theory and a lot of examples in other situations wherein she believes that visitation
with the grandparent is very positive.
The problem is, does it actually apply to
this proceeding where she has spoken to
no one?”
(RT 142, l. 2-18).
After taking a recess to research the point, the
Court denied Pardes’ request to have Dr. Drozd, a licensed and vastly experienced 730 Examiner, testify
on his behalf, (RT 144, l.11-145, l.1). Such comments
clearly and unequivocally support the application of a

19
Rebuttal Presumption is favor of Grandparent Visitation.
In addition, there was the children’s personal attorney’s Attorney Diane Vargas’ comments made
during her Independent report to the Court, “As a
Grandparent, I always think it’s great to have
grandparents. It’s just good for kids to have
grandparents if those Grandparents don’t have
. . . problems . . . :(RT 135 l. 19-22). There was no evidence of any problems with Pardes, as it pertains to
his relationship with the boys.
Such evidence easily supports the imposition of
such a rebuttable presumption. Especially when there
was no evidence before the Court that Pardes did not
have a loving relationship with the boys, until Jennifer
passed away.
By analogy, there was no rebuttable presumption
in favor of an objecting “FIT” parent before Troxel v.
Granville (2000) 530 U.S. 57. As such, there is no reason not to impose a rebuttable presumption in favor of
the benefits of Grandparent visitation, which is so
clearly accepted and approved by many experts and society.
There was no evidence before the Trial Court that
Pardes was not a loving or emotionally supporting
grandparent; or that he mistreated the boys in any
manner. There was substantial evidence of only positive interaction between Pardes and the boys. The
Wienick’s concerns for objecting to the Pardes visitation were not reasonable or credible but punitive and

20
retaliatory in nature (as explained below). Those bogus
concerns were not remotely reasonable nor credible as
it relates to the best emotional interests of the boys. As
such, Pardes was entitled to this rebuttable presumption in favor of Grandparent visitation. The lower
Courts failure to invoke the rebuttal presumption in
favor of Grandparent visitation constitutes a violation
of Pardes’ constitutional rights.
Such a presumption, until properly rebutted by
the surviving Parent, clearly is in the best interests of
the Grandchildren. Such a rebuttable presumption
would save a lot of valuable and limited trial time; expert and cost costs to the litigants.
2- COURTS SHOULD BE REQUIRED TO
EVALUATE THE “EMOTIONAL FITNESS”
OF THE SURVIVING PARENTS INCLUDING THE VALIDITY OF THE REASONS AND
CONCERNS FOR THE SURVIVING PARENTS’
OBJECTION TO GRANDPARENT VISITATION, BEFORE INVOKING THE REBUTTABLE PRESUMPTION OF THE TROXEL
DECISION AND EVALUATION OF FAMILY
CODE SECTIONS 3102 AND 3104.
Both lower Courts heavily used the Troxel v.
Granville (2000) 530 U.S. 57 (Troxel) case as a major
basis for their decisions denying visitation. Troxel
speaks to the issue of the rebuttable presumption in
favor of a “Fit Parent” to make reasonable and proper
decisions concerning the physical upbringing of his/her
children. However, the Troxel decision addresses the

21
issue of a Surviving Parent taking care of the physical needs of their children. It is silent on the issue of
whether or not that “Fitness” also includes the emotional needs of the children are being protected by
that Parent. The evidence presented at Trial overwhelmingly showed that the Wienicks were “Unfit Parents”, as it pertains to the emotional needs of the boys.
The basis for the Wienicks denial of Grandparent visitation was solely because they hated and despised
Pardes, for irrelevant personal reasons other than the
emotional well being of the boys. This extreme hatred
arose because of Pardes’ strong support for his emotionally vulnerable daughter Jennifer (who suffered a
mental breakdown in March, 2012), just prior to the
Wienick’s separation and divorce in August, 2012.
As one would expect from a good and loving Father, during the toxic and extremely confrontational divorce proceedings and post Judgment custody battles,
Pardes took Jennifer’s side during the divorce and post
Judgment custody battles. Afterwards, at Jennifer’s
Request, Petitioner represented Jennifer’s boyfriend
during a Civil Harassment lawsuit brought by Wienick
against the boyfriend. Pardes won a non-suit against
Wienick in that case. That victory angered Wienick to
no end, and was an improper justification for denying
visitation. (See App. 38 and 43)
The primary reason that the Wienicks give for
terminating any Grandparent visitation is because
they were concerned that Pardes was taking away
the boys’ small inheritance from their Mother, in seeking bona fide and ultimately successful claims against

22
Jennifer’s small Estate. This “objection” is most absurd because the Wienicks are involved in parent alienation, and have tried to eliminate any memory of
Jennifer from the boys. See Exhibits 18 (CT 779-780)
and 19 (CT 782-783). See Appendix 38 and 43, respectively.
Another totally irrelevant reason to the visitation
issue was that Wienick tried to use his leverage over
visitation, to wrongfully extract concessions from Petitioner, in the ongoing Fred Pardes v. Michelle Pardes
2013 Divorce proceeding. Petitioner’s divorce from his
wife had no bearing on his relationship with the boys.
Getting involved in a totally different divorce proceeding is absolutely irrelevant as to what is or is not in the
best interests of the boys.
The Appellate Opinion does not accurately state
the net effect of the Troxel ruling, and misapplies its
ruling. The opinion frequently mentions “parent(s)”,
but the proper term is a “Fit Parent”. The Court ultimately quotes Troxel, supra, “Thus so long as a parent adequately cares for his or her children (i.e
is fit), there will normally be no reason for the
State to inject itself into the private realm of the
family to further question the ability of that parent to make the best decisions concerning the best
decisions concerning the rearing of that parent’s
children” at pp 68-69. However, there are both physical and emotional needs for the proper upbringing of a
child. The Troxel case does not make any such distinction, but should have.

23
Taking care of a child’s physical needs is only one
aspect as to whether or not a Parent is a “Fit Parent”.
The other part of the equation is whether or not the
parent is properly satisfying the emotional needs of his
children.
It is undisputed that Pardes was actively involved
in the boys’ life from the date of their births until
Jennifer’s untimely death. Keeping Pardes involved in
the children’s would only give them additional love and
emotional support. But the Wienicks didn’t care. They
just wanted retribution and punishment for perceived
“slights” against them, which had no bearing on the
emotional welfare of the boys.
The Wienicks unjustifiable and punitive destruction of the stipulated long standing pre-existing loving
Grandparent-Grandchild relationship between Pardes,
the boys, clearly proves that they are not protecting the
emotional needs of their children, which renders them
“Unfit Parents”.
What “Fit Parent” removes a loving Grandparent
with a life long pre-existing loving relationship with
his grandchildren from his children’s lives? Does a
“Fit Parent” terminate the continuation of this long
existing loving relationship, depriving his children of
additional emotional support after their mother’s
premature and unexpected death, because of his thirst
for revenge and retribution. The Wienicks putting
their thirst for punishment, revenge and retribution
against Pardes, before the emotional needs of the
boys, renders them “Unfit Parents”, precluding the

24
application of any Troxel presumption, and eliminates
the need for any analysis under Family Law Code Sections 3102 and 3104.
This Court must expand and/or modify its Troxel
ruling, to require the lower Courts to initially evaluate
the fitness of the parent(s) as to both the physical and
emotional needs of the children, before applying the
Troxel presumption or application of sections 3102 or
3104, or other similar statutes in other states. This
mandates a review of the surviving parents reasons
and concerns for any objection in denying grandparent visitation. Neither Court made any such evaluation.
The “clear and convincing” evidentiary burden required under Rich v. Thatcher (2011) 200 Cal. App. 4th
1176, 1180, can only come into play after the Court
makes a specific ruling that the objecting parent was a
“Fit Parent” as to both the physical and emotional
needs of the children. That the surviving Parent’s
reasons for objecting to Grandparent visitation were
valid, reasonable and credible. The evidence before
the Trial Court did not support a finding that the
Wienicks were “Fit Parents” because they improperly
ignored the emotional needs of the boys. Trial Exhibits
18 (App. 38) and 19 (App. 43), clearly show their objection to visitation and areas of concerns regarding
Pardes’ visitation were not valid, reasonable nor credible, as they negatively effected the best interests and
emotional needs of the boys.

25
In addition, under Family Code section 3104(f ),
if the surviving parent asserts the “rebuttable presumption affecting the burden of proof that the visitation of a grandparent is not in the best interests of
a minor child if the parent . . . with whom the child
resides . . . objects to visit by the grandparent”, the
reasons for the parent’s objection to visitation must be
fully examined and explored, before the Court can
impose the adverse rebuttable presumption. If the
Parent’s objections are not valid, reasonable, or credible, as they relate to both the physical and emotional
needs of their children, the surviving parent can not
properly object, and the Court can not impose the presumption against Grandparent Visitation.
In addition, if the surviving parent is proven to be
unfit as to meeting either the physical or emotional
needs of the minor child, this Court must expand/modify
the Troxel ruling, to mandate that an improperly objecting parent loses the right to object to Grandparent
visitation; and there need not be any analysis or application of either sections 3102 or 3104, or any other similar State statutes.
Where the trial court found that the father’s
objections to visitation did not arise out of a genuine concern for the best interest of the children,
the due process rebuttable presumption that father
was acting in the best interest of the children was overcome. See Hoag v. Diedjomahor (App. 4 Dist. 2011) 199
Cal.App.4th 1321, 200 Cal.App.4th 1008, as modified,
review denied. Clearly, Exhibits 18 and 19 preclude

26
application of any such rebuttable presumption in favor of the Wienicks.
The Hoag Appellate court found the father’s objection to visitation was “a desire to retaliate
against the grandmother for her attempt to take
the children away from him.” (Hoag, supra, 199 Cal.
App. 4th at p. 1018.) His desire for retaliation and her
purported disrespect of him were not in the children’s
best interest but punished them “for the sins of the
grandmother.” (Ibid.)
Those facts are exactly on point as to Pardes’ protection of his emotionally vulnerable daughter, Jennifer,
from Wienick’ abusive tactics in their divorce proceedings and post-judgment custody battles. Wienick’s
termination of the Grandparent relationship was
clearly in retaliation for Pardes in doing so; and for
having the audacity in standing up for his legitimate
claims against Jennifer’s Estate and disagreeing with
Wienick’s opinion about Jennifer’s boyfriend. That was
not the intent of this Court when rendering its Troxel
Decision.
Review of the emotional needs of a Grandchild,
and the validity of the surviving Parents reasons and
concerns for denying visitation, i.e. are they retaliatory
or punitive in nature, are critical evaluations, which
must be made in every Grandparent Visitation Petition, before there can be any application or analysis
under Family Law code sections 3102 and 3104. If the
objections are retaliatory or putative, this Court must
rule that no further evaluation need be made, and that

27
the Grandparent is automatically entitled to reasonable visitation.
3- THE LACK OF ANY GRANDPARENT CONTACT, FROM THE TIME OF THE DEATH OF
THE NATURAL MOTHER UP UNTIL THE
TIME OF TRIAL ON THE GRANDPARENT
VISITATION PETITION, DUE TO SURVIVING PARENT’S PUNITIVE REFUSAL TO
GRANT ANY GRANDPARENT VISITATION
OR CONTACT, SHOULD NOT BE USED AS A
JUSTIFICATION FOR DENYING GRANDPARENT VISITATION
Pardes concedes that he has had virtually no contact with the boys, since Jennifer’s untimely death over
five years ago on June 27, 2020, through the several
dates of Trial, and even until the date of this Petition.
However, the Court should examine why there was no
contact between the Grandparent and the Grandchildren.
Did Pardes not even bother to see his Grandchildren? Not so in this case. Or was he prevented from
seeing his Grandchildren through the punitive and retaliatory actions of the surviving parent? That clearly
applies to this case. Wienick rejected all efforts by
Pardes to reconcile their differences, and see his
Grandchildren.
Contrary to the lower Court’s ruling, the lack of
any Grandparent contact due to the interference of
the surviving parent should not be held against the

28
Grandparent, where the lack of post death contact was
through no fault of his own. That the lack of any contact was because of the surviving parents unjustified
interference with visitation.
The Wienicks used a typical tactic in their Grandparent Alienation scheme, by abusing their control
over the Grandparent visitation issue. They have and
continuously maliciously interfered with and prevented any and all types of contact and visitation between Pardes and his Grandchildren. Their desire was
to destroy the Grandparent relationship between
Pardes and the boys; to have the Grandparent (Pardes)
totally disappear from their minor children’s memories, by preventing any type of contact or maintenance
of any pre-existing relationship. This improper interference should be held against the surviving parent.
There is no legitimate reason for a petitioning Grandparent to be denied visitation, because he is unable to
maintain his pre-existing loving relationship, due to
the intentional and punitive interference by the surviving parent, who is engaging in Grandparent alienation.
Even the Wienicks conceded at trial that Pardes
had a pre-existing loving relationship with both the
boys before Jennifer died. What did the Wienicks intend
to accomplish by terminating that prior loving Grandparent relationship? By preventing any contact, and
destroying the prior loving relationship, they wanted
to eliminate Pardes from the boys’ young and not
fully developed memories, so they can later argue that
the boys are not harmed in any way, as a result of a

29
relationship that no longer existed. Allowing the
Wienick’s to benefit from their own wrongdoing is inherently unconscionable and unfair, and violated
Pardes’ constitutional rights.
Where the trial court found that the father’s
objections to visitation did not arise out of a genuine concern for the best interest of the children,
and the due process presumption that father was acting in the best interest of the children was overcome.
See Hoag v. Diedjomahor (App. 4 Dist. 2011) 199
Cal.App.4th 1321, 200 Cal.App.4th 1008, as modified,
review denied.
Reason and fairness dictate that a surviving parent should not be allowed to benefit from malicious and
punitive efforts to interfere with and/or terminate all
Grandparent contacts and visitation with his Grandchildren. It is inherently unfair for a surviving parent
to maliciously prevent the continuation of a pre-existing and loving grandparent-grandchild relationship,
and then claim that the lack of any post death contact/
relationship is grounds for denying future Grandparent visitation.
Civil Code § 3517 provides: “No one can take
advantage of his own wrong”. By terminating all
Grandparent visitation, by a Grandparent to which
they stipulated to at trial had a pre-existing relationship with their children, without any just legal cause,
the Wienicks’ are trying to do just that.
Permitting the Wienicks and similarly situated
“Unfit” punitive parents to abuse their parental position

30
and exclusive control as a surviving parent, and then
take advantage of their wrongdoing, by claiming there
is no post death relationship, constitutes a violation of
Pardes constitutional rights.
4- THIS COURT SHOULD RECOGNIZE THE LEGAL CONCEPT OF GRANDPARENT ALIENATION, AND AUTOMATICALLY PERMIT
GRANDPARENT VISITATION, WHERE SURVIVING PARENTS EXHIBIT SUCH ALIENATION PRACTICES
The Wienick’s stipulated at trial that there was
a long standing pre-existing relationship between
Pardes and his Grandsons N.W. and S.W., from their
respective births until Jennifer’s death. Yet, they denied Pardes, any type of visitation or contacts, without
any legal justification, after Jennifer’s death.
The Forty-Seven Photographs produced at trial
show a loving, devoted, active, and fun actively involved relationship between Fred, N.W. and S.W., up
until Jennifer’s death. That relationship was suddenly
terminated as of Jennifer’s death, once the Wienicks
assumed full custody of the boys. The reason for that
disruption of that relationship is due to and as a result of the Wienicks’ “Grandparent Alienation”.
The Wienicks have argued that there is no such
legal concept. That is not true. Courts have long recognized the concept of Parental Alienation. It is not a
reach to extend that concept to the GrandparentGrandchild relationships.

31
In 1985, the late American psychiatrist, Richard
Gardner, introduced the term “parental alienation syndrome” (PAS), defining it as: The parental alienation
syndrome (PAS) is a disorder that arises primarily in
the context of child custody disputes. Its primary manifestation is the child’s campaign of denigration
against a parent, a campaign that has no justification.
It results from the combination of a programming
(brainwashing) parent’s indoctrination and the child’s
own contribution to the vilification of the target parent. When true parental abuse and/or neglect are present, the child’s animosity may be justified, and so the
parental alienation syndrome explanation for the
child’s hostility is not applicable (p. 61).
Gardner placed particular emphasis on three contributing factors: “parental ‘brainwashing,’ situational
factors and the child’s own contributions.” The diagnosis of PAS is dependent on eight primary factors identified in the child: (1) campaign of denigration; (2)
weak, frivolous or absurd rationalizations for the deprecation; (3) lack of ambivalence; (4) the “independent
thinker” phenomenon (child claims these are their
own, and not the alienating parent’s beliefs); (5) reflexive support of the alienating parent in the parental
conflict; (6) child’s absence of guilt over cruelty to, or
exploitation of, the alienated parent; (7) presence of
borrowed scenarios; and (8) spread of rejection to extended family and friends of the alienated parent. See
Barbara Jo Fidler, Nicholas Bala, Children Resisting
Postseparation Contact with A Parent: Concepts,

32
Controversies, and Conundrums (2010) 48 Fam. Ct.
Rev. 10, 12.
Baker (2005a) identifies five general strategies
alienating parents use to turn children against the
other parent and the extended family (some or all may
be used), with levels of severity and explicitness ranging within each of these categories. In another study,
Baker and Darnall (2006) identify as many as 1,300
actions, categorized into 66 strategies. These strategies
are summarized into seven groups, plus a catch-all
miscellaneous group:
(1) Badmouthing (e.g., qualities, portrayed
as dangerous, mean, abandoning; using the
rejected parent’s first name with the child
instead of “Mom” or “Dad”, etc.);
(2) Limiting/interfering with parenting time
(e.g., moving away, arranging activities during
scheduled time with rejected parent, calling
during contact; giving child “choice” about
whether to have contact, etc.);
(3) Limiting/interfering with mail or phone
contact (blocking, intercepting, or monitoring
calls and mail, etc.);
(4) Limiting/interfering with symbolic contact (limiting mentioning, no photographs,
having child call someone else “Mom” or
“Dad”; changing child’s name, etc.);
(5) Interfering with information (e.g., refusing to communicate, using child as messenger

33
not giving important school and medical information, etc.);
(6) Emotional manipulation (e.g., withdrawing love, inducing guild, interrogating child,
forcing child to choose/express loyalty or reject, rewarding for rejection, etc.);
(7) Unhealthy alliance (e.g., fostering dependency, child having to spy, keep secrets,
etc.); and
(8) Miscellaneous (e.g., badmouthing to
friends, teachers, doctors, interfering with
child’s counseling, creating conflict between
child and rejected parent, etc.)
The alienated child becomes highly attuned to
the aligned parent’s neediness and dependency on the
child for love and acceptance. Quickly, the child comes
to know that it is impossible to show love for both
parents; showing love for and receiving love from the
rejected parent is tantamount to betraying the alienating parent. A child’s loyal behavior is rewarded with
warmth, attention love and even material goods. Disloyal behavior is negatively reinforced with punishing
looks, anger, withdrawal and abandonment, a risk the
child cannot take having already “lost” one loving and
loved parent. See Barbara Jo Fidler, Nicholas Bala,
Children Resisting Postseparation Contact with A Parent: Concepts, Controversies, and Conundrums (2010)
48 Fam. Ct. Rev. 10, 19.
The concept of Parental Alienation has been accepted by many California Courts, including most

34
recently In re M.M. (Cal. Ct. App., Dec. 14, 2015, No.
B259253) 2015 WL 8770107, where the Court held that
the Mother’s prior attempts to alienate the child from
father, her continuing failure to acknowledge any
wrongdoing and an expert’s testimony that the alienating conduct was likely to continue were sufficient to
support the juvenile court’s finding that removing the
child from mother’s custody was the only reasonable
means of ensuring the child’s protection.
In agreement is In re Marriage of Nair (Cal. Ct.
App., June 10, 2010, No. C061097) 2010 WL 2330204,
where the Court ruled:
“So, I think there should be an incentive-this is a special circumstance in this
case.
I think there should be an incentive
for both parents to promote frequent and
continuing contact between the children
and the other parent and that incentive
in this case, I believe, can be served in not
rewarding the alienating parent with an
award of child support but instead to indicate to the parent that, No. That’s not
right. That’s not appropriate.”
The circumstances and misconduct are the same,
even though the names are changed. It is just alienation by just another name.
As such, there is no reason not to extend that Parental Alienation concept for Grandparent alienation,
based upon similar criteria. Similarly, the relief to be

35
granted due to the Grandparent alienation should be
the total disregard of the parental objection, and granting of reasonable Grandparent visitation.
The same wrongful discouragement of Grandparent Alienation should be the automatic granting of
reasonable visitation of monthly visitation to the
Grandparent, and preclusion of the application of
sections 3102 and 3104, or any other similar State
Statutes across the country.
Termination of Grandparent visitation without
reasonable or just cause, for retaliatory reasons not in
the child’s best emotional interests, is a classic act of
Grandparent alienation.
Unfortunately, Grandparent Alienation has become nationwide problem in today’s society that it
has lead to the creation in 2011 of an entity called
Alienated Grandparents Anonymous (AGA), which is
based in Florida. Pardes’ situation is not unique, as
there are many Grandparents and families are grappling with the phenomenon.
“No one can take advantage of his own wrong”. See
Civil Code §3517.
The Wienicks should not be rewarded for their obvious intentional, malicious and retaliatory misconduct. To allow the Wienicks to do so violates Pardes
constitutional rights.
The facts of this case more than justify expanding
the Troxel ruling to hold that Grandparent Alienation

36
renders a surviving objecting parent, who unreasonably denies Grandparent Visitation, an UNFIT parent,
and totally unable to exercise his/her presumptive parental rights under Troxel. In addition, it allows the
Court to rule, without any further examination, that
upon seeing such Grandparent alienation, granting
of monthly visitation would be in the best emotional
interests of the Grandchildren, and that no further
analysis is required under Family Law code sections
3102 and 3104, and other similar statutes across the
nation.
5- A LOVING AND BONDING RELATIONSHIP
CAN BE ESTABLISHED BETWEEN A
GRANDPARENT AND A GRANDCHILD, EVEN
WHEN THE VISITATION TIME SPENT WITH
THE GRANDPARENT AND THE GRANDCHILD IS DURING THE POST DIVORCE
CUSTODIAL TIME WITH THE NATURAL
MOTHER, BEFORE SHE PASSES AWAY
The Wienicks objected to the fact that the only
time Pardes spent with N.W. and S.W., during and
after the divorce, was in the physical presence of
Jennifer. Query, so what??? Pardes was constantly
helping Jennifer, and was actively involved in the
boys lives.
What kind of personal contact does it take to establish, develop and maintain a loving and bonded relationship between a Grandparent and a Grandchild?
Can a loving and bonded relationship be established
where a Grandparent actively spends time with the

37
Grandchildren only in the presence of the parent? Absolutely.
Does a Grandparent need to spend time alone, as
suggested by the lower Courts, without a parent being
present, to develop the requisite bonded and loving relationship to satisfy the burden in Family Code Section
3102 or 3104? Absolutely not!!!
The issue becomes what happens during those
custodial visits? Is the Grandparent actively involved
with the Grandchildren, fully engaging with them in
different activities, during that time spent together?
Or is the Grandparent sitting aside from the children
reading the newspaper during the Soccer game?
The Forty-seven Photographs produced at trial
showed Pardes actively engaged with the children
in numerous different activities. The photographs
showed the boys laughing, joking and having fun
with Pardes. Can the Court hold that because Jennifer
was nearby that Pardes was unable to establish a loving and bonded relationship with the boys? The answer
is no.
The Appellant Court cited and affirmed the Trial
Court’s erroneous finding on page 5, line 20-21 of the
Opinion:
“(8) Pardes’ evidence showed his only
prior contacts with the Grandchildren
were “during their Mother’s Custodial
time.”

38
There was no factual analysis as to why the custodial visits as shown in the Forty-Seven Photographs,
and the Pardes and Alice Nelson trial testimony, could
not develop a loving and bonded relationship. There
was no legal analysis as to why a Grandparent, as a
matter of law, could not develop the requisite relationship merely because the time that he spent with his
Grandchildren, was in the presence of their Mother,
who only had Fifty Percent custody of the children.
The lower courts totally ignored the Pardes explanation that Jennifer was recovering from a mental
breakdown, she was emotionally vulnerable, that
Wienick was physically and emotionally abusive, that
Wienick’s strategy was to get Jennifer to have a relapse, so he could have 100% custody of the boys. That
there were toxic divorce and post judgment custody
battles between Jennifer and the Father, Wienick. That
she had only 50% of the time with the children, and
Jennifer wanted to spend every possible minute of her
limited time with her children.
Under these circumstances, there was no extra
time for Pardes to spend time with the Grandchildren,
separate and apart from Jennifer. Pardes had to honor
Jennifer’s wishes.
The Courts also ignored the fact that Pardes was
actively and emotionally engaged with the boys, from
the moment of their births until Jennifer’s untimely
death.
Such a “Custodian Time Only” finding totally ignores the significance and bonding effects of family

39
gatherings during holidays such as Christmas,
Thanksgiving, Easter, Passover, Chanukah, Jewish
High Holidays, etc.. If these valuable and loving relationships were not established, developed and maintain during those family visits, why do so many
Americans track back home to see ALL their family
members. They do so because it is important to establish that Grandparent relationship.
Any time positively and actively spent directly
with a Grandchild, such as shown in the Forty-Seven
(47) Photographs introduced and testified at trial, only
enhances the bond between Grandparent and Grandchild, even if that time is spent together with other
family members. Otherwise, why do American families
continue to spend family time together, during such
holidays.
It is self evident that time spent together in a
positive and active manner, even in the presence of the
parent, can only establish and reinforce a Grandparent-Grandchild’s loving and bonded relationship. To
rule otherwise is contrary to law, and constitutes an
abuse of discretion, justifying reversal of the lower
Court’s ruling denying Grandparent visitation.
---------------------------------♦---------------------------------

CONCLUSION
For the reasons set forth above, that Pardes constitutional rights as a Grandfather have been violated,
it is respectfully requested that the Court grant review

40
on these Five important Grandparent issues in this
case.
Dated: September 8, 2020

Respectfully submitted,
FRED S. PARDES, IN PRO SE

